        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Inspection Report
Procurement Internal Controls at Los
Alamos National Laboratory




DOE/IG-0903                            March 2014
                                 Department of Energy
                                   Washington, DC 20585
                                        March 26, 2014


MEMORANDUM FOR THE MANAGER, LOS ALAMOS FIELD OFFICE, NATIONAL
               NUCLEAR SECURITY ADMINISTRATION


FROM:                    Gregory H. Friedman
                         Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Procurement Internal
                         Controls at Los Alamos National Laboratory"

BACKGROUND

Los Alamos National Laboratory (LANL), a Department of Energy multidisciplinary research
institution focusing on national security, is operated by Los Alamos National Security, LLC
(LANS). LANL enhances national security by ensuring the safety and reliability of the U.S.
nuclear stockpile, developing technologies to reduce threats from weapons of mass destruction,
and solving problems related to energy, environment, health and global security concerns. The
Los Alamos Field Office provides Federal oversight of LANL.

LANL employs over 10,000 personnel that include staff, support contractors and consultants,
craft workers, researchers, students and others. Consultants are experts who render services on a
short-term or intermittent basis. Department of Energy contractors frequently use consultants
that are deemed to possess unique capabilities to assist in advancing their various missions.
Throughout the life of consultant agreements, Department contractors are required to monitor
performance and ensure that consulting services have been received prior to payment.

The Office of Inspector General received an allegation from the Los Alamos Field Office
concerning a possible conflict of interest in a consultant agreement awarded to an individual who
was the spouse of a senior manager at LANL. It was alleged that neither the consultant nor the
senior manager disclosed their spousal relationship to LANL. Further, it was alleged that work
was performed before the consultant agreement was signed and also that hours were charged by
the consultant for work that was not performed. We initiated this inspection to determine the
facts and circumstances surrounding the allegations.

RESULTS OF INSPECTION

The allegations were substantiated. We found that LANL inappropriately awarded a sole source
consultant agreement to an individual who was the spouse of a senior LANL manager. We also
discovered that the consultant did not disclose his spousal relationship with the senior LANL
manager at the time of award. In addition, the senior manager did not notify LANL ethics
officials or her superior of a potential conflict of interest involving her spouse's consulting
agreement until 5 months after the consultant agreement was awarded.
Further:

   •   Work was performed before the consultant agreement was signed. Specifically, we found
       that the consultant was paid $4,700 for services performed prior to the award of the
       consultant agreement; and

   •   The consultant charged for work that was not performed. Specifically, the consultant
       charged 2 hours for a discussion on environmental matters that never took place.

These two events were included in the initial $13,800 invoice submitted to LANL by the
consultant.

Prior to referring these issues to the Office of Inspector General, the Los Alamos Field Office
brought its concerns to the attention of LANS. Subsequently, LANS determined that the
consultant agreement did not conform to prescribed LANL procedures and processes. As a
result, LANS reimbursed the Federal government $23,100, the total amount paid to the
consultant. LANS officials also indicated that they had initiated corrective actions intended to
prevent similar situations from occurring in the future.

                                      Consultant Agreement

In July 2012, LANL prepared a Consultant Agreement Request Form, which included a
Statement of Work, Procurement Description and a limited Sole Source Justification statement.
The Form was signed by a LANL official in July 2012 and a consultant agreement was awarded
to the consultant on September 11, 2012. The Form established that the consultant would serve
as the LANL Technology Transfer Point of Contact for Regional Technology Infrastructure.

Conflict of Interest

While we found that the consultant's relationship with the senior LANL manager was well
known by certain LANL officials, the consultant did not formally disclose his covered
relationship. Notably, the consultant was introduced by LANL officials as the spouse of a senior
LANL manager during a tour of the Technology Transfer Group in November 2011. The
consultant, however, did not ensure that the relationship was properly reflected in the
Representations and Certifications document completed at the time the consultant agreement
was completed. That document contained a Personal Conflicts of Interest Certification section,
which provided that:

   An affirmative response in the following certification will require LANS to evaluate
   your offer to determine whether a conflict of interest exists. A determination that a
   conflict of interest does exist may necessitate rejection of your offer. The fact that a
   LANS' employee, former employee, or near relative of an employee owns, controls, or
   has a significant financial interest in your organization will not, in and of itself,
   necessarily be cause for rejection of an offer.




                                                2
The consultant had the option to mark one of two certification boxes. The first certification box
stated "An Employee or a Near Relative does own, control, or have Significant Financial Interest
in the Offeror’s organization." The second certification box stated "An employee or a Near
Relative does not own, control, or have a Significant Financial Interest in the Offeror's
organization." If the first box was marked, the employee or near relative was required to be
identified together with the LANS entity that employed the individual. However, the consultant
marked the second box, thereby failing to disclose his spousal relationship.

Despite his demonstrated knowledge of the consultant's spousal relationship, a LANL official
present during the November 2011 tour of the Technology Transfer Group failed to ensure that
apparent conflict of interest issues were adequately addressed. In fact, that LANL official
completed and signed the Conflict of Interest and Organizational Conflict of Interest (COI and
OCI) Determination for Consultant Contracts section of the Consultant Agreement Request sent
to LANL procurement personnel for the initiation of a contract. In completing this section of the
Consultant Agreement Request, the LANL official had the opportunity to provide supplemental
information in response to a series of questions regarding the consultant's activities, including
questions on preferential treatment and influence. Specifically, if the official answered "yes" to
any of the 15 questions included on the form, an explanation was to be provided on a
supplemental sheet. In response to the question, "Will the individual be isolated from influence
on the scope of work or other changes to the contract after award," the LANL official responded
"yes." However, no explanation was provided on the supplemental sheet, which could have
alerted LANL procurement personnel to the fact that the consultant was the spouse of a senior
manager.

Senior Manager Notification

Compounding problems with the failure to address conflict of interest issues at the time of the
award, we found that the senior manager, who was the spouse of the consultant, did not notify
LANL ethics officials or her superior of a potential conflict of interest until 5 months after the
consultant agreement was awarded. Title 48, Code of Federal Regulations, Part 970.0371-6,
Incompatibility between regular and private interests, states that employees of a management
and operating contractor are expected to disclose any incompatibilities between duties performed
for the contractor and their private interests. Consistent with the terms of its contract and the
provisions of Title 48, LANL developed Procedure P723, Conflicts of Interest. This Procedure
defined Laboratory-wide processes to assist employees in identifying, disclosing, and avoiding
conflicts of interest. This Procedure stated that a personal conflict of interest arises when an
employee’s outside financial, business or personal relationships are inconsistent with the
interests of LANS or the government, and as a result, his or her independent judgment related to
Laboratory matters may become compromised. This Procedure required that employees who
find themselves in a personal conflict of interest situation notify their manager or the Ethics and
Audits Group and refrain from making or attempting to influence any Laboratory decisions that
may materially affect their financial, business, or personal interests.

In February 2013, the senior manager was required to update Los Alamos Form 1991, Conflict of
Interest (COI) Disclosure for Senior Managers and Advisors. This form states:



                                                 3
    Do you, any immediate family member, or any member of your household have any
    personal interest in the outcome of any procurement action, license transaction,
    litigation, or enforcement action in which LANS/LANL is a party or otherwise is
    involved?

The senior manager requested a determination on the reporting requirement from a LANL
official and was advised to report the personal conflict of interest. Then, nearly 5 months after
her spouse's consultant agreement was awarded, the senior manager reported that a personal
conflict of interest existed by responding with a yes on Form 1991 and stating that "My husband
[name of spouse] has a small consultant agreement with the lab."

Invoice Submission

We found that the consultant submitted an invoice that included services performed prior to the
start of the consultant agreement, including 2 hours for a discussion on environmental matters
that never took place. Specifically, the consultant submitted two invoices for services
performed, including meetings with various Government officials. The total amount of these
two invoices was $23,100. The first invoice totaled $13,800 and was dated December 10, 2012.
The second invoice totaled $9,300 and was dated March 1, 2013. Of the $13,800 included in the
first invoice, $4,700 was for services performed prior to the September 11, 2012, award of the
consultant agreement. The $4,700 included 12 charges covering 4.7 days of work effort from
August 8, 2012 to September 10, 2012.

In addition, we found that these services included a charge for a 2-hour meeting on August 24,
2012, with a Federal official in Espanola, New Mexico. However, the Federal official told us
that he was not in Espanola, New Mexico, on August 24, 2012. We were told that he and his
wife attended the Santa Fe Opera with the consultant and the consultant's spouse on that date.
The Federal official also said that while at the Opera, he did not realize that the consultant had an
agreement with LANL. It should be noted that when questioned about the hours charged on
August 24, 2012, the consultant agreed that the hours charged probably should not have been
billed.

                                        Corrective Actions

LANL completed an internal audit of consultant agreements on May 10, 2013. The purpose of
the audit was to determine if controls over the execution and administration of LANS consultant
agreements were adequate to ensure compliance with terms and conditions of the consultant
agreements, fair and reasonable pricing, and compliance with Federal and Department
regulations, prime contract requirements and LANS' policies and procedures. To address the
issues relating to spousal relationships, the audit identified the following corrective actions:

   •   Formation of a Review Team in May 2013 to pre-screen all requests for service contracts
       to be awarded to named individuals; and




                                                 4
   •   Preparation of a communication to management by the Ethics and Audits Group
       concerning the requirements of LANL Procedure P723 to disclose interim changes in
       Forms 1990, Conflict of Interest (COI) Certificate and 1991, Conflict of Interest (COI)
       Disclosure for Senior Managers and Advisors, and the requirement to obtain the Ethics
       and Audits Group approval to enter into subcontracts with spouses of LANL employees.

In addition, on May 22, 2013, the LANL Director issued a Laboratory-wide e-mail stating that
when circumstances dictate, contracting for a named specialist, whether through consultant
agreements, task order agreements, staff augmentation, or otherwise, will be examined by a
Review Team to prescreen those requests prior to awarding a subcontract. The Review Team
was to be comprised of employees in oversight roles in Acquisition Services Management,
LANL Counsel, and the Ethics and Audits Group.

CONTRIBUTING FACTORS AND IMPACT

The issues identified in this report occurred, in part, because a LANL official who sponsored the
consultant agreement failed to recognize and address apparent conflict of interest issues.
Notably, that same LANL official who completed and signed the COI and OCI Determination
for Consultant Contracts section of the Consultant Agreement Request failed to follow existing
guidance and did not provide required supplemental information. As a result, an opportunity to
alert procurement personnel to the fact that the consultant was the spouse of a senior LANL
manager was missed, and LANS did not evaluate the consultant's offer to determine if a conflict
of interest existed. Therefore, an ethics review was not initiated. Ultimately, the consultant
agreement was awarded without consideration of the spousal relationship.

Also, both the consultant and the senior LANL manager did not fully understand the
requirements related to conflicts of interest. In particular, during the LANL internal audit, the
consultant indicated that he thought the issue of conflict of interest only applied to organizations
such as corporations, not individuals. In addition, the senior manager explained that she did not
know that she had to report the personal conflict of interest related to her spousal relationship
until she was required to update her LANL Form 1991.

As to the charging issues we observed, the consultant told a LANL official that he believed that
he could charge LANL for services performed after the Consultant Agreement Request Form
was signed, but before the consultant agreement was actually awarded. However, both LANL
and Los Alamos Field Office officials acknowledged that invoicing for services prior to award
was inappropriate. LANS acknowledged that no reimbursable work should have been performed
prior to the effective date of the consultant agreement. Subsequently, LANS determined that the
consultant agreement did not conform to prescribed LANL policies and procedures, and the
consultant agreement was terminated. A check for $23,100 was then drafted by LANS to
reimburse the Federal Government the total cost of the consulting agreement and corrective
actions were identified.




                                                 5
RECOMMENDATIONS

To address the issues identified in our report and to help prevent recurrence, we recommend that
the Manager, Los Alamos Field Office, ensures that LANL implements the proposed corrective
actions relating to: (1) the acquisition of service contracts awarded to individuals having near-
relatives or spouses working at LANL; and (2) the disclosure of potential conflicts of interest.

MANAGEMENT COMMENTS

Management agreed with the findings and recommendations noted in the report. Management
indicated that the Los Alamos Field Office has supervised the implementation of the
recommended corrective actions and will engage in ongoing oversight to evaluate the sustained
effectiveness of these actions. Management also indicated that it will ensure that lessons learned
from this incident are shared across the Nuclear Security Enterprise. Management's comments
are included in Attachment 2.

INSPECTOR COMMENTS

We found management's comments and planned corrective actions to be responsive to our report
findings and recommendations.


Attachments


cc:    Deputy Secretary
       Acting Administrator, National Nuclear Security Administration
       Chief of Staff




                                                6
                                                                                  Attachment 1


                      OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of this inspection was to determine the facts and circumstances surrounding
allegations concerning a conflict of interest in a consulting agreement awarded to a consultant
who was the spouse of a senior manager at Los Alamos National Laboratory (LANL). The
Office of Inspector General received the allegations from the Los Alamos Field Office on March
14, 2013.

SCOPE

This inspection was conducted from March 2013 to January 2014 at LANL in Los Alamos, New
Mexico and at the National Nuclear Security Administration's Albuquerque Complex in
Albuquerque, New Mexico. The Inspection was conducted under Office of Inspector General
Project Number S13IS009. To accomplish the inspection objective, we:

   •   Reviewed and analyzed the consultant agreement for the LANL Technology Transfer
       Point of Contact for Regional Technology Infrastructure, including applicable invoices;

   •   Reviewed relevant criteria including documents, procedures and prior reports; and

   •   Received briefings and conducted interviews with contractor and Federal officials.

METHODOLOGY

This inspection was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency's Quality Standards for Inspection and Evaluation, January 2012. Those
standards require that we plan and perform the inspection to obtain sufficient, appropriate
evidence to provide a reasonable basis for our conclusions and observations based on our
inspection objective. We believe the evidence obtained provides a reasonable basis for our
conclusions and observations based on our inspection objective. Accordingly, the inspection
included tests of controls and compliance with laws and regulations to the extent necessary to
satisfy the inspection objective. Because our review was limited, it would not necessarily have
disclosed all internal control deficiencies that may have existed at the time of our inspection.
Finally, we relied on computer processed data, to some extent, to satisfy our objective. We
confirmed the validity of such data, when appropriate, by reviewing source documents and
conducting physical observations.

An exit conference was waived by NNSA management on January 9, 2014.




                                               7
                      Attachment 2



MANAGEMENT COMMENTS




         8
                                                                        IG Report No. DOE/IG-0903



                                 CUSTOMER RESPONSE FORM
I   The Office of Inspector General has a continuing interest in improving the usefulness of its
    products. We wish to make our reports as responsive as possible to our customers' requirements,
    and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
    you may suggest improvements to enhance the effectiveness of future reports. Please include
    answers to the following questions if they are applicable to you:

    1. What additional background information about the selection, scheduling, scope, or
       procedures of the audit or inspection would have been helpful to the reader in understanding
       this report?

    2. What additional information related to findings and recommendations could have been
       included in the report to assist management in implementing corrective actions?

    3. What format, stylistic, or organizational changes might have made this report's overall
       message clearer to the reader?

    4. What additional actions could the Office of Inspector General have taken on the issues
       discussed in this report which would have been helpful?

    5. Please include your name and telephone number so that we may contact you should we have
       any questions about your comments.


    Name                                          Date

    Telephone                                     Organization

    When you have completed this form, you may telefax it to the Office of Inspector General at
    (202) 586-0948, or you may mail it to:

                                   Office of Inspector General (IG-1)
                                         Department of Energy
                                        Washington, DC 20585

                                      ATTN: Customer Relations


    If you wish to discuss this report or your comments with a staff member of the Office of
    Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page
                                    http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
